                        OFFICE OF
                 THE INSPECTOR GENERAL
                       U.S. NUCLEAR
                 REGULATORY COMMISSION



                    Audit of NRC’s Drug Testing Program

                     OIG–05-A-05 December 20, 2004




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s Web site at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                             December 20, 2004




MEMORANDUM TO:                Luis A. Reyes
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF NRC’S DRUG TESTING PROGRAM
                              (OIG-05-A-05)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Drug Testing Program.

The objective of this audit was to assess the Nuclear Regulatory Commission’s (NRC)
implementation of its drug testing program. Based on our review and evaluation of
NRC’s drug testing program management controls, OIG determined that there are
weaknesses with the program’s random testing process and management oversight.

With regard to the random testing process, OIG determined that:

        The random testing pool does not include all employees who should be included.
        The agency is not applying its random selection methodology correctly when
        selecting employees for random testing.
        Some employees are not notified for testing in accordance with requirements.

With regard to program oversight, OIG determined that:

        The agency does not maintain sufficient program records.
        Program guidance is not readily available to employees.

This report makes 12 recommendations to strengthen the drug testing program’s
effectiveness as a deterrent to illegal drug use.

Agency comments provided at the exit conference on September 29, 2004, and during
subsequent communications have been incorporated, as appropriate, into this report.
Appendix C contains the agency’s comments and our responses.

Please provide information on actions taken or planned on each of the recommendations
directed to your office by February 11, 2005. Actions taken or planned are subject to
OIG follow-up, as stated in the attached instructions.

If you have any questions or wish to discuss this report, please call me at 415-5915 or
Beth Serepca at 415-5911.

Attachments: As stated
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                        Audit of NRC’s Drug Testing Program


EXECUTIVE SUMMARY

         BACKGROUND

         President Reagan deemed it to be in the best interests of national
         security, public health, and safety to establish a national policy regarding
         drug use in the workplace. Executive Order 12564, Drug-Free Workplace,
         was signed into authority on September 15, 1986, to improve the
         efficiency of the Federal workforce and help prevent the use of illegal
         drugs in the workplace. This order requires that each agency head
         develop a plan for achieving a drug-free workplace while maintaining the
         rights of employees, the public, and the Government. The order also
         requires that each executive agency establish a program to test for
         evidence of illegal drug use by employees in sensitive positions.

         PURPOSE

         The objective of this audit was to assess the Nuclear Regulatory
         Commission’s (NRC) implementation of its drug testing program.

         RESULTS IN BRIEF

         Improvements are needed in NRC’s random drug testing process and
         oversight of its drug-free workplace program to improve the program’s
         effectiveness and compliance with Federal and agency requirements. The
         Office of Inspector General (OIG) determined that the random testing pool
         does not include all employees who should be tested for drug use, the
         agency is not applying the random selection methodology correctly when
         selecting employees for random testing, and some employees are not
         notified for testing in accordance with Federal requirements. OIG also
         determined that the agency does not maintain sufficient program records
         and program guidance is not readily available to employees.

         RECOMMENDATIONS

         This report makes 12 recommendations to the Executive Director for
         Operations to strengthen the drug testing program’s effectiveness as a
         deterrent to illegal drug use. A consolidated list of recommendations
         appears on page 17 of this report.

         AGENCY COMMENTS

         The agency provided comments during an exit conference that was held
         on September 29, 2004, and subsequently submitted written comments.
         Where appropriate, OIG modified the report in response to these
         comments. Appendix C contains a copy of the agency’s written comments
         and OIG’s response to each.


                                       i
                         Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




        ii
                                                    Audit of NRC’s Drug Testing Program



ABBREVIATIONS AND ACRONYMS

         EAP      Employee Assistance Program
         HHS      Department of Health and Human Services
         NRC      Nuclear Regulatory Commission
         OIG      Office of the Inspector General
         TDP      Testing Designated Position




                                  iii
                                   Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




               iv
                                                                                 Audit of NRC’s Drug Testing Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY .................................................................................. i
    ABBREVIATIONS AND ACRONYMS................................................................ iii
    I. BACKGROUND ........................................................................................... 1
    II. PURPOSE.................................................................................................... 5
    III. FINDINGS .................................................................................................... 5
             A.        DRUG TESTING PROCESS WEAKNESSES.............................. 5
             B.        PROGRAM OVERSIGHT WEAKNESSES................................... 12
    IV. CONSOLIDATED LIST OF RECOMMENDATIONS .................................... 17
    V. AGENCY COMMENTS ................................................................................ 19


    APPENDICES
    A.       SCOPE AND METHODOLOGY ............................................................. 21
    B.       FLOWCHART OF THE DRUG TESTING PROCESS............................. 23
    C.       AGENCY COMMENTS AND OIG RESPONSE ...................................... 25




                                                         v
                                   Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




               vi
                                                        Audit of NRC’s Drug Testing Program


I. BACKGROUND

         Federal Drug Testing Program Guidance

         President Reagan signed Executive Order 12564, Drug-Free Workplace,
         into authority on September 15,1986. The President deemed this to be in
         the best interests of national security, public health and safety, law
         enforcement, and the efficiency of the Federal service because the use of
         illegal drugs creates the possibility for coercion, influence, and
         irresponsible action under pressure. This order requires that each agency
         head develop a plan for achieving a drug-free workplace while maintaining
         the rights of employees, the public, and the Government. The order also
         requires that each executive agency establish a program to test for
         evidence of illegal drug use by employees in sensitive positions. The
         agency head is responsible for determining the extent to which such
         employees are tested and the criteria for such testing. The basis of the
         criteria should be the nature of the agency's mission and its employees’
         duties, the efficient use of agency resources, and the danger to public
         health and safety or national security that could result from the failure of
         an employee to adequately perform his or her duties.

         Executive Order 12564 authorizes the Secretary, Department of Health
         and Human Services (HHS), to promulgate scientific and technical
         guidelines for drug testing programs and requires agencies to conduct
         their drug testing programs in accordance with these guidelines. HHS has
         issued Mandatory Guidelines for Federal Workplace Drug Testing
         Programs and Model Plan for a Comprehensive Drug-Free Workplace
         Program to help Federal agencies consistently implement the
         requirements for facilitating a drug-free workplace.

         Executive Order 10450, Security Requirements for Government
         Employment (April 27, 1953), requires agency heads to designate
         sensitive positions within the agency. This Executive Order describes
         sensitive positions as those that could have a material adverse effect on
         national security. This Executive Order also stipulates that agency heads
         are to suspend or terminate persons filling sensitive positions that use
         intoxicants to excess or are addicted to drugs.

         The Supplemental Appropriations Act of 1987 authorizes random drug
         testing of employees in sensitive positions.




                                       1
                                               Audit of NRC’s Drug Testing Program


NRC Drug Testing Program Guidance

NRC must ensure that the civilian use of nuclear materials occurs in a
manner consistent with public health and safety, environmental quality,
and national security. Impaired judgment or reliability, inappropriate
behavior, or similar aberrant actions could have disastrous, immediate,
and long-term effects. In carrying out its mission and to implement
Executive Order 12564, NRC issued two guidance documents. The NRC
Drug-Free Workplace Plan (Plan) sets forth NRC’s objectives, policies,
procedures, and implementation guidelines to achieve a drug-free
workplace. The Plan describes NRC’s drug testing program, including
awareness and education opportunities for all employees, drug testing,
counseling, and provisions for rehabilitation for employees who use illegal
drugs. The NRC Drug Testing Manual (Manual) contains procedures to
assure that NRC’s drug testing program is uniformly implemented for the
employees and applicants subject to testing.

NRC's drug testing program includes provisions for the conduct of
random, applicant, reasonable suspicion, post-accident, voluntary, and
follow up testing. This audit report focuses primarily on the random drug
testing component of the program. In accordance with the Atomic Energy
Act of 1954, all NRC positions are sensitive and potentially subject to drug
testing. However, pursuant to the criteria established in Executive Order
12564 and the Plan, the NRC Commission in 1997 determined that NRC
employees in positions containing one or more of the following attributes
are subject to random testing:

1. Employees with unescorted access to vital or protected areas of
   certain NRC licensed facilities.

2. Employees who have assigned incident response duties or are on call
   for regional or headquarters incident response centers.

3. Employees with access to Sensitive Compartmented Information,
   Foreign Intelligence Information, or who require access more than
   once or twice a year to classified information.

4. Employees who are motor vehicle operators whose principal or backup
   duties include driving Government vehicles to transport passengers.

NRC estimates that approximately 1,720 of its 3,260 employees occupy
positions that are subject to random drug testing. NRC’s policy is to
annually test 50 percent of employees in the testing pool. All external
candidates being seriously considered for employment in testing
designated positions also require drug testing. Appendix B contains a flow
chart that depicts NRC’s drug testing process.



                              2
                                               Audit of NRC’s Drug Testing Program




                    Figure 1. Drug test kit.

In accordance with the Mandatory Guidelines for Federal Workplace Drug
Testing Programs, employees subject to random testing must provide a
urine specimen that an HHS approved laboratory analyzes for the
presence of marijuana, cocaine, opiates, amphetamines, and
phencyclidine.

Program Roles and Responsibilities

Drug program staff in the Security Branch, Division of Facilities and
Security, Office of Administration manage the testing component of NRC’s
drug-free workplace program. Staff in the Office of Human Resources
maintain the database of testing designated positions. Staff
in other offices throughout the agency also have responsibilities for
program implementation. Table 1, on page 4, describes the roles and
responsibilities of various staff and contractors involved in the program.




                             3
                                                                           Audit of NRC’s Drug Testing Program


    Table 1. Drug-Free Workplace Program Roles and Responsibilities


Role Stipulated in    NRC Job Title               Office/ Division         Description of Responsibility
Plan

Drug Program          Deputy Executive Director   Office of the            Implements and manages the drug
Coordinator           for Management Services     Executive Director       program within NRC, including receiving
                                                  for Operations           verified positive test results.


Headquarters          Personnel Security          Division of Facilities   Directs and administers the collecting and
Assistant Drug        Specialist                  and Security, Office     testing portions of the drug program for
Program Coordinator                               of Administration        NRC, including generating random test lists
                                                                           for headquarters, regions, and remote sites;
                                                                           maintaining/retaining all NRC drug program
                                                                           collection and test records for NRC
                                                                           employees and applicants; and
                                                                           coordinating with regional staff to conserve
                                                                           resources and accomplish reliable and
                                                                           accurate testing objectives.

Regional Assistant    Directors for Resource      One in each              Notify the appropriate management official
Drug Program          Management                  Regional Office          located at the specific site on the actual test
Coordinators          Administration                                       date and forward all drug testing-related
                                                                           records to headquarters for storage and
                                                                           retention.
Employee              Manager,                    Office of Human          Advises NRC staff on the submission of
Assistance Program    Employee Assistance &       Resources                annual statistical reports and prepares
(EAP) Manager         Wellness Services                                    consolidated reports on NRC EAP activity.


Drug Rehabilitation   Contractor                  Office of Human          Serves as initial point of contact for
Assessment                                        Resources                employees who ask for or are referred to
Coordinator                                                                drug counseling.


Medical Review        Contractor                  Division of Facilities   Reviews all laboratory test results,
Officer                                           and Security             confirming whether an individual has
                                                                           obtained a verified positive test result and
                                                                           reports to headquarters on all activities and
                                                                           findings on a regular basis.

Supervisors           Various                     All NRC supervisors      Identify, report, and refer for counseling
                                                                           individuals who use illegal drugs in the
                                                                           workplace; initiate appropriate disciplinary
                                                                           action upon a finding of illegal drug use;
                                                                           and assist higher-level supervisors in
                                                                           evaluating employee performance and/or
                                                                           behavior problems that may be related to
                                                                           illegal drug use.




                                                     4
                                                         Audit of NRC’s Drug Testing Program


II. PURPOSE

            The objective of this OIG audit was to assess NRC’s implementation of its
            drug testing program. Appendix A contains more information on audit
            scope and methodology.


III. FINDINGS

            Improvements are needed in NRC’s random drug testing process and
            oversight of its drug-free workplace program to better ensure program
            effectiveness and compliance with Federal and agency requirements.
            With regard to the random testing process, OIG determined that:

                    The random testing pool does not include all employees who
                    should be included.

                    The agency is not applying its random selection methodology
                    correctly when selecting employees for random testing.

                    Some employees are not notified for testing in accordance with
                    Federal requirements.

            With regard to program oversight, OIG determined that:

                    The agency does not maintain sufficient program records.

                    Program guidance is not readily available to employees.

            Program enhancements in the random testing process and management
            oversight will strengthen the drug testing program’s effectiveness as a
            deterrent to illegal drug use.


      A. Drug Testing Process Weaknesses

            NRC’s random drug testing process contains several weaknesses:

                The agency’s pool of employees subject to random drug testing does
                not include all employees who should be included.

                The agency is not implementing an effective random process to select
                employees from the existing pool.

                The agency is not consistently following HHS random testing
                notification requirements.


                                         5
                                               Audit of NRC’s Drug Testing Program


NRC’s Pool of Testable Employees Is Not Complete

NRC’s employee testing pool is incomplete in two ways. First, some
employees who should be included in the pool because they occupy
testing designated positions are not. Second, there are two categories of
employees whose jobs contain attributes that HHS recommended as
testing designated positions, but these employees have not been subject
to random drug testing at NRC. The pool is incomplete because (1) NRC
has no formal process for adding individuals to the random drug testing
pool when newly assigned responsibilities qualify them for random testing
and (2) NRC has not re-evaluated the criteria for determining testing
designated positions after recent threats to national security.

      Some Employees Are Not Included in the Pool

According to the NRC Drug-Free Workplace Plan, employees with one or
more of the following attributes in their positions are subject to random
drug testing:

   Unescorted plant/facility access.

   Incident response responsibilities.

   Classified access.

   Motor vehicle operators.

These are the job attributes that the Commission determined would
require employee participation in the agency’s random drug testing
program. Jobs with these attributes are referred to as testing designated
positions.

Despite this Commission requirement, some employees who should be
subject to testing due to their job attributes are never tested because they
have not been added to the testing pool. Auditors reviewed records for 65
of 425 headquarters employees with incident response duties and found
that 23 – or 35 percent – were not included in the pool. Auditors also
determined that only 3 of 45 Office of Investigations staff were included in
the pool. This staff is composed primarily of criminal investigators whose
duties require the review of classified information.

OIG identified two reasons why some incident response and Office of
Investigations employees are not characterized as being in testing
designated positions and are not included in the NRC’s random drug
testing pool. First, some agency staff have used outdated 1988 criteria –
which predates the Commission’s 1997 determination on testing
designated positions – to identify only incident response decision makers
for inclusion in the pool. Second, the agency has no formal process for

                              6
                                                                             Audit of NRC’s Drug Testing Program


                 adding to the testing pool those employees whose positions were not
                 initially considered testable positions, but whose responsibilities changed
                 over time. An example of this scenario would be an administrative staff
                 person who, since September 11, 2001, has been assigned incident
                 response duties as part of his or her job.1 All incident response staff,
                 including administrative personnel, have key roles during emergencies
                 and their use of illegal drugs could impact NRC’s ability to respond.
                 Another example would be an Office of Investigations criminal investigator
                 who, in the past, rarely reviewed classified information but whose cases
                 now require frequent review of such information.

                 These failures to correctly identify employees for inclusion in the random
                 drug testing pool can remain undetected because the agency does not
                 conduct any type of quality assurance review to make sure that the correct
                 individuals are included. Ensuring that employees are appropriately
                 included in the random drug testing pool raises the assurance of a drug
                 free workplace among NRC employees with public health and safety
                 responsibilities.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 1. Fully implement existing NRC policy by including all individuals with
                    incident response duties and with annual access to classified
                    information into the random drug testing pool.

                 2. Implement a procedure for updating testing designated positions in the
                    random drug testing pool. This procedure should capture individuals
                    whose job responsibilities shift over time to include or exclude
                    employees meeting the criteria for inclusion in the drug testing pool.

                 3. Periodically conduct a quality assurance review to ensure that all jobs
                    with testable attributes are included in the random drug testing pool.

                          Computer System Administrators and Law Enforcement Staff Are
                          Not Categories of Testing Designated Positions

                 OIG identified two categories of employees whose jobs contain attributes
                 that HHS suggests as testing designated positions, but these employees
                 have not been subject to random drug testing at NRC. These categories
                 are computer system administrators and law enforcement employees who
                 are authorized to carry weapons.


1
   OIG report, Audit of the NRC’s Incident Response Program (OIG-04-A-20), dated September 16, 2004, determined
that improvements are needed to assure that essential incident response functions are completed efficiently and
effectively. This report also determined that NRC does not have a formal process to certify personnel for incident
response duties.
                                                        7
                                              Audit of NRC’s Drug Testing Program


These agency employees are not subjected to random drug testing
because agency policy does not require it. However, OIG contends that
each of these groups should be subjected to random testing because of
their job responsibilities. Computer system administrators are referred to
as “trusted information system employees” because they have levels of
system rights allowing them to access files, retrieve passwords, and
perform essential network functions. These individuals have the capability
of bringing down or causing significant damage to the agency’s computer
network. All NRC criminal investigators who engage in law enforcement
may be authorized to carry weapons, detain individuals, and execute
arrests as part of their duties. These responsibilities necessitate clear
thinking and unclouded judgment. While NRC requires its contract
security guard force to undergo random drug testing, the agency does not
require such testing of agency employees with law enforcement duties.

NRC last revised its testing categories in 1997 and has not since re-
evaluated the criteria for determining the testing designated positions.
Yet, current threats to national security have caused the agency to re-
evaluate and increase security measures in other areas, as evidenced in
the creation of the position of Deputy Executive Director for Homeland
Protection and Preparedness, the Office of Nuclear Security and Incident
Response, and the implementation of strengthened physical and computer
security measures. The exclusion of those employees who could cause
damage to public health and safety indicates that managers have neither
reviewed who should be included in the testing pool nor updated the
criteria for testing designated positions.

Recommendations

OIG recommends that the Executive Director for Operations:

4. Revise the categories of testing designated positions to include
   computer system administrators and individuals engaged in law
   enforcement activities who are authorized to carry weapons.

5. Re-evaluate categories of testing designated positions and continue to
   do so biennially.

Selection for Drug Testing Is Not Completely Random

NRC does not employ a completely random testing methodology as part
of its drug testing program. While staff begin each test period with a
randomly generated list of names, they do not use the list in a manner that
assures employees an equal chance of being selected. This is because




                              8
                                               Audit of NRC’s Drug Testing Program


the agency lacks formal written procedures for staff to follow in
implementing the agency’s random selection process. By developing
such procedures, NRC can improve the reliability of its random selection
process.

HHS requires that employees be randomly selected for testing, with all
employees in the testing pool having an equal chance of being selected.
In accordance with this requirement, NRC may choose any random
selection process that has been certified by a statistician. HHS also
requires that supervisors notify individuals that they have been selected
for random drug testing.

NRC starts each testing period with a randomly generated list of names,
based on a computer-generated algorithm that was certified by a
statistician. The headquarters list contains roughly three times the
number of names needed for testing. For example, in one test period, the
computer randomly generated a list of 135 names when the first 45 would
be needed for testing. If some of the first 45 individuals were excused, the
next on the list were to be contacted. According to a statistician, in order
to identify 45 individuals for testing on a given day, it was reasonable to
assume that program staff would not have to contact individuals beyond
the first 50 on the list. Furthermore, if alternates were needed, it is
important that they be contacted in the order they appear on the list.

Drug program staff do not use the headquarters list in a manner that
assures an equal chance of selection. Employees are sometimes
selected for testing if drug program staff recognizes the name of someone
on the list that was previously determined to be available. Or, employees
will be called for testing because they have the same supervisor or work in
the same office with another employee whose name appeared earlier on
the list. OIG identified the following examples from a sample of 18
employees from one office who were selected for testing:

   In one test period, an individual who was 116th on the list was selected
   for drug testing.

   In four test periods, individuals who were 70th, 71st, 72nd, and 75th on
   the lists were selected for drug testing.

   In 10 consecutive test periods, some individuals were selected from
   beyond the first 50 individuals named in the list.

Drug program staff explained that once one supervisor in an office has
been notified, the supervisor might be asked about the availability of
others in the office who appear later on the list. They further explained
that they used this method for calling individuals for testing because they
do not have an accurate supervisors list and because they assumed that


                              9
                                                                            Audit of NRC’s Drug Testing Program


                 contacting anyone on the list was within the parameters of the random
                 process. However, according to a statistician, selecting someone for drug
                 testing based on name, supervisor, or office recognition does not
                 constitute a sound random methodology.

                 In addition, drug program staff give some agency managers preferential
                 treatment that interferes with the random testing process. When drug
                 program staff recognize the names of certain agency managers (referred
                 to by drug program staff as “VIPs”), they place these names on a different
                 contact list, which is pursued separately than the larger list.

                 Finally, NRC’s random selection process does not provide a means to test
                 employees who are frequently absent. Instead of rescheduling absent
                 employees for a different day of drug testing – or weighting the likelihood
                 of selection for employees who are frequently on travel – these employees
                 are excused from testing. This further increases the chance of some
                 employees being called for drug testing more often and lessens the
                 agency’s ability to detect drug use among those who are often absent.2

                 Drug program staff are not employing an effective random selection
                 process because the agency lacks written procedures for conducting a
                 sound random drug testing process in accordance with HHS
                 requirements. By establishing a formal procedure for carrying out an
                 effective random selection process, NRC will better equalize employees’
                 chances of being selected, thereby improving program reliability.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 6. Develop formal written procedures for staff to follow in implementing
                    the agency’s random drug testing selection process.

                 7. Include in the process a means to drug test the randomly selected
                    employees who are frequently absent.

                 8. Develop and implement a quality assurance process to periodically
                    verify that employees are randomly selected for drug testing without
                    regard to their name, office, or position.




2
  OIG Memorandum Report, Review of NRC’s Drug-Free Workplace Plan (OIG-04-A-15), dated May 24, 2004,
recommended that the Executive Director for Operations revise the Plan to include a deferral of testing clause
contained in the Department of Health and Human Services Model Plan for a Comprehensive Drug-Free Workplace
Program. The agency agreed to complete this recommendation, which allows drug testing of employees who were
absent on the day of the drug test for up to 60 days after the test date.
                                                      10
                                                 Audit of NRC’s Drug Testing Program


Agency Notification Procedures Are Noncompliant

Drug program staff do not follow HHS guidance concerning drug testing
notification requirements because the agency lacks a quality assurance
process to verify that notification procedures are implemented according
to that guidance. Proper employee notification is necessary to protect
employees from unwarranted disciplinary action and the agency from legal
challenge.

According to HHS notification requirements, supervisors must inform
employees who have been selected for random drug testing that they are
under no suspicion of taking drugs and that the employee’s name was
selected randomly. Both the employee and supervisor must sign a form
verifying that these steps were taken prior to the collection of a sample.
The underlying reason for supervisor notification of drug testing pertains to
lines of authority. Employees are subject to disciplinary action if they
refuse an order from a supervisor.

Despite these notification requirements, NRC drug program staff have
instructed employees directly to take the drug test. Typically, staff will
make three attempts to reach the supervisor, but will contact the employee
directly if these attempts are unsuccessful. In cases where the drug
program staff make the notification, they sign the notification form in place
of the employee’s supervisor even though they lack the authority to do so
under the HHS regulations. This notification process fails to ensure that
supervisors instruct employees on the circumstances of their selection.

Drug program staff explained to OIG that they take these measures in
order to facilitate their achievement of goals pertaining to the number of
tests that must be given within a test period. They also explained that this
“workaround” is necessary because they do not have adequate lists of
employees and their supervisors, making it difficult to know whom to call.

The agency lacks an up-to-date supervisor list to facilitate the notification
process for drug program staff. Moreover, the agency lacks a quality
assurance process to verify that notification procedures are implemented
according to HHS requirements.

Noncompliance with HHS requirements concerning notification for drug
testing could lead to unwarranted disciplinary action or legal challenge.
For example, an employee at a Federal agency who was contacted
directly by a drug program official thought the phone call was a practical
joke. The employee ignored the call and did not report for the drug test.
Consequently, the employee received a serious reprimand and was
suspended from his regular duties. In fact, a disciplinary action against an




                               11
                                                     Audit of NRC’s Drug Testing Program


     employee for violation of drug testing procedures or who had a positive
     drug test result, but had not been notified correctly, could be legally
     challenged. The disciplinary action would be vulnerable to legal challenge
     if the testing procedure were not in accordance with the HHS
     requirements. By instituting a quality assurance process to verify that
     notification procedures are implemented according to HHS requirements,
     NRC can protect the agency and employees from legal challenge.

     Recommendations

     OIG recommends that the Executive Director for Operations:

     9. Provide and update regularly employee-supervisor lists for drug
        program staff to facilitate the drug testing notification process.

    10. Institute a quality assurance process to verify that notification
        procedures are implemented in accordance with HHS requirements.

     Summary

     NRC can strengthen its random drug testing process by ensuring that all
     necessary employees are included in the drug testing pool, improving its
     random sampling methodology, and complying with HHS employee
     notification requirements. These measures will strengthen the agency’s
     assurance that its employees are not using illegal drugs.


B. Program Oversight Weaknesses

     Auditors found the following weaknesses in the oversight of the drug
     testing program:

        The agency does not maintain sufficient program records.

        Program guidance is not readily available to employees.

     Insufficient Program Records Maintained

     The agency has not established an effective method for maintaining and
     compiling records in accordance with NRC Drug-Free Workplace Plan
     requirements. The Plan stipulates that NRC establish a record keeping
     system that captures sufficient documents to meet operational and
     statistical needs, including notices of verified positive tests and suspicion
     of tampering evidence. Drug program staff and managers could not
     provide these source documents to OIG and stated that they rarely
     compile program data. Weaknesses in NRC’s method for maintaining and
     compiling records occur because the agency has not established clear
     guidelines and policy for keeping records on all program aspects. By

                                   12
                                                 Audit of NRC’s Drug Testing Program


establishing an effective method for maintaining and compiling records,
NRC can better ensure the accuracy of the information it reports to
Congress concerning the number of positive test results.

The NRC Drug-Free Workplace Plan requires that the drug testing
program record keeping system capture and include:

   Notices of verified positive test results.

   Written materials justifying reasonable suspicion testing or evidence
   that an individual may have altered or tampered with a specimen.

   Statistical reports.

   Other documents that responsible officials deem necessary for efficient
   compliance with the NRC Drug-Free Workplace Plan.

NRC is required to report drug testing program results to Congress in its
annual budget submissions and to HHS for reporting in its annual report.

The agency has not established an effective method for maintaining and
compiling records of verified positive results or suspicion of tampering
evidence. When auditors requested to review such documentation
pertaining to employees, program officials could not provide these
records. Instead, drug program staff had to recall the time period and
names, and then run a list from the testing database to locate the one
verified positive test result that occurred during random drug testing. In
addition, drug program staff could not provide documentation of verified
positive or adulterated tests that occurred as a result of applicant testing.
Drug program staff, however, were able to estimate from memory how
many had occurred since 2002.

NRC has not established an effective method for compiling these drug
testing records because staff compile this type of information only when
requested. Drug program staff report the number of verified positive drug
test results for the congressional budget submissions based on their
recollections. Staff do not consider it necessary to maintain and compile
this documentation since there are rarely any positive drug test results and
HHS requests for program information do not occur on a regular basis.
While HHS’ annual report requires more statistical data than the budget
report, staff explained that they do not begin compiling this program data
until requested due to resource limitations.

Because NRC lacks consistent documentation of program information, on
one occasion the agency did not report accurate drug testing program
information to Congress, although this information was accurately reported
to HHS. As part of its Budget Estimates and Performance Plan, each


                               13
                                               Audit of NRC’s Drug Testing Program


fiscal year, NRC reports to Congress the status of its drug testing
program. Despite a verified positive test result from random testing that
occurred in September 2002, the agency reported that all random testing
results between October 1, 2001, and September 30, 2002, had been
negative. Further, the agency did not make a correction and report the
verified positive result in the subsequent report.

Recommendation

OIG recommends that the Executive Director for Operations:

11. Develop and implement policy and procedures to compile all records
    necessary for compliance with the NRC Drug-Free Workplace Plan.

Program Policy and Procedures Not Accessible to Agency Staff

NRC’s drug program policies and procedures are not accessible on the
agency’s Web site and have not been fully incorporated into the agency’s
official policy and procedure guidance. NRC’s management directives
require the agency to communicate policies and procedures governing
internal NRC functions.

NRC’s policy is to communicate to employees the basic NRC policies,
requirements, and procedures necessary for the agency to comply with
Executive Orders, pertinent laws, regulations, and the circulars and
directives of other Federal agencies. Handbooks contain instructional
material such as procedures, guides, standards, reporting requirements,
exhibits, and pertinent laws that require compliance with the policy stated
in the directives.

The NRC Drug-Free Workplace Plan and NRC Drug Testing Manual are
not communicated to employees via the agency's intranet or other
conveniently accessible media. The Plan and Manual are available in
hardcopy versions only and must be obtained from the Reproduction
Department via e-mail request or from the Employee Assistance Program
or Assistant Drug Program Managers.

Management Directive 12.3, NRC Personnel Security Program (MD 12.3),
does not provide employees with specific guidance related to the drug
testing program. MD 12.3 contains a description of the drug testing
program on a single page and refers readers to the hardcopy versions of
the Plan and Manual for specific policies and procedures.




                              14
                                               Audit of NRC’s Drug Testing Program


Drug program staff explained that neither the Plan nor the Manual have
been incorporated into NRC’s management directives because these
documents are lengthy (30+ and 56 pages, respectively). These staff
further explained that the information does not appear on the intranet
because some program information already appears on the Security
Branch Web site and more information would be redundant.

However, by adding NRC’s drug testing policies and procedures to the
management directives, this information would automatically become
available on the intranet. This would facilitate employee access to this
information and ensure their understanding and confidence in the drug
testing program.

Recommendation

OIG recommends that the Executive Director for Operations:

12. Update the Management Directive System to include the drug testing
    policy and procedures that employees are expected to follow.

Summary

Improvements in drug program records maintenance and accessibility of
program guidance will strengthen the agency’s oversight of the drug
testing program.




                              15
                         Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




       16
                                                          Audit of NRC’s Drug Testing Program


IV. Consolidated List of Recommendations

           OIG recommends that the Executive Director for Operations:

           1. Fully implement existing NRC policy by including all individuals with
              incident response duties and with annual access to classified
              information into the random drug testing pool.

           2. Implement a procedure for updating testing designated positions in the
              random drug testing pool. This procedure should capture individuals
              whose job responsibilities shift over time to include or exclude
              employees meeting the criteria for inclusion the drug testing pool.

           3. Periodically conduct a quality assurance review to ensure that all jobs
              with testable attributes are included in the random drug testing pool.

           4. Revise the categories of testing designated positions to include
              computer system administrators and individuals engaged in law
              enforcement activities who are authorized to carry weapons.

           5. Re-evaluate categories of testing designated positions and continue to
              do so biennially.

           6. Develop formal written procedures for staff to follow in implementing
              the agency’s random drug testing selection process.

           7. Include in the process a means to drug test the randomly selected
              employees who are frequently absent.

           8. Develop and implement a quality assurance process to periodically
              verify that employees are randomly selected for drug testing without
              regard to their name, office, or position.

           9. Provide and update regularly employee-supervisor lists for drug
              program staff to facilitate the drug testing notification process.

          10. Institute a quality assurance process to verify that notification
              procedures are implemented in accordance with HHS requirements.

          11. Develop and implement policy and procedures to compile all records
              necessary for compliance with the NRC Drug-Free Workplace Plan.

          12. Update the Management Directive System to include the drug testing
              policy and procedures that employees are expected to follow.




                                         17
                          Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




        18
                                                   Audit of NRC’s Drug Testing Program


V. AGENCY COMMENTS

         The agency provided comments during an exit conference that was held
         on September 29, 2004, and subsequently submitted written comments.
         Where appropriate, OIG modified the report in response to these
         comments. Appendix C contains a copy of the agency’s written comments
         and OIG’s response to each.




                                    19
                         Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




       20
                                                      Audit of NRC’s Drug Testing Program
                                                                         Appendix A
SCOPE AND METHODOLOGY

        Auditors assessed NRC’s implementation of its drug testing program with
        regard to the random drug testing process and general program oversight.

        Auditors reviewed Executive Orders relevant to Federal drug testing
        programs; NRC Management Directives and Handbooks pertaining to
        personnel security, Privacy Act, and information technology to identify
        agency requirements relevant to random drug testing policies and
        procedures; the NRC Drug-Free Workplace Plan and NRC Drug Testing
        Manual to identify agency drug testing program policies and procedures;
        and the Department of Health and Human Services Model Plan for a
        Comprehensive Drug-Free Workplace Program and Mandatory Guidelines
        for Federal Workplace Drug Testing Programs to determine Federal
        requirements for drug testing programs.

        Auditors collected test results data in accordance with Privacy Act
        regulations and analyzed this data to determine whether drug program
        staff were employing an effective random selection process for drug
        testing purposes. Auditors also collected and analyzed data pertaining to
        the employees and the testing designated positions that have been
        identified for random drug testing.

        Auditors interviewed staff in NRC Headquarters and Region IV to
        determine how staff were implementing drug testing program processes
        and procedures. They interviewed staff at the Department of Health and
        Human Services to obtain clarification on drug program requirements and
        staff at the Department of Energy to learn about their drug testing program
        implementation.

        This review was conducted from February 2004 to May 2004 in
        accordance with generally accepted Government auditing standards.
        Internal control weaknesses have been noted and considered for
        reporting. The work was conducted by Beth Serepca, Team Leader;
        Vicki Foster, Senior Management Analyst; and David Ditto, Management
        Analyst.




                                     21
                         Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




       22
                                                             Audit of NRC’s Drug Testing Program
                                                                                  Appendix B
Flowchart of the Drug Testing Process

                        NRC’S DRUG TESTING PROCESS

                         1. Applicant is inf ormed that position is a testing
                         designated position and subject to pre-employ ment
                         and random drug testing.
                         2. New employ ee is prov ided 30-day notice bef ore
                         placement in drug testing pool.
                         3. HR supplies Assistant Drug Program Coordinator,
                         Div ision of Facilities and Security , with diskette
                         containing testing designated positions.


                                      1. The Assistant Drug
 Bef ore random testing, the          Program Coordinator uses
 employ ee exercises the              certif ied random process to
 option of acknowledging              select employ ees when                  The employ ee has excused
 drug use -"saf e harbor."            conducting drug test.                   absence.
                                      2. Employ ee’s superv isor is
                                      notif ied of the time of the
                                      test.
                                                                             The Assistant Drug Program
                                                                             Coordinator documents the
 The employ ee successf ully
 completes the                                                               reason f or the employ ee’s
                                      1. Superv isor instructs               absence and the name of the
 rehabilitation program.
                                      employ ee to report to test            superv isor or other
                                      site.                                  knowledgeable indiv idual who
                                      2. Contractor collects split-          prov ided the inf ormation.
                                      sample, and completes
                                      chain-of -custody f orm.
                                      3. The samples are sent to
  Employ ee’s name is re-             the lab f or testing.                   Employ ee’s name is re-
  entered in testing pool.                                                    entered in testing pool.



              If test result is negativ e,                     1. If test result is positiv e,
              Assistant Drug Program                           Medical Rev iew Of f icer
              Coordinator e-mails the                          reports results to the
              result to the employ ee.                         employ ee and the superv isor
                                                               is contacted.
                                                               2. The Drug Rehabilitation
                                                               Assessment Coordinator
                                                               conducts assessment f or
              Employ ee’s name is re-                          rehabilitation.
              entered in testing pool.

                                                               The employ ee must go
                                                               through rehabilitation and
                                                               counseling, and disciplinary
                                                               actions such as suspension
                                                               or reduced pay or remov al
                                                               may be taken.


                                                             If the employ ee tests positiv e f or
                                                             the second time, remov al is
                                                             required.




                                       23
                                   Audit of NRC’s Drug Testing Program




[Page intentionally left blank.]




              24
                                     Audit of NRC’s Drug Testing Program
                                                        Appendix C

EDO COMMENTS AND OIG RESPONSE




                                25
     Audit of NRC’s Drug Testing Program




26
                                                             Audit of NRC’s Drug Testing Program


OIG’S ANALYSIS OF THE EDO’S COMMENTS

Below are the agency’s comments to the draft audit report, followed by OIG’s response
to each comment. NRC’s comments appear in bold italics.

Page 11, recommendation #4 (which appears on page 8 of this final report)

The wording of recommendation #4 should be changed to, “Evaluate the
categories of testing-designated positions to consider including computer
system administrators and individuals engaged in law enforcement activities who
are authorized to carry weapons.” According to the Department of Health and
Human Services (HHS) guidance, neither one of these categories is considered to
be a presumptive testing category. The staff plans to evaluate these categories
as part of its re-evaluation of testing-designated positions in response to
recommendation #5.

OIG did not change the wording of recommendation #4 from “revise” to “evaluate.” OIG
contends that the categories can be revised based on guidance contained in the HHS
memorandum to Federal agencies dated August 2, 1999, titled, “Guidance for Selection
of Testing Designated Positions (TDP’s).” This document established criteria for testing
designated categories of employees whose drug use could cause significant harm to
the agency. Although this guidance describes the presumptive testing category as the
core group of testing designated positions that must be included in all plans, it also
describes preferred and discretionary designations. These latter two designations are
suitable for NRC’s system administrators and individuals engaged in law enforcement
activities who are authorized to carry weapons.

Preferred testing designated positions are described in HHS guidance as categories
representing strong government interests and specifically include employees authorized
to carry firearms. The rationale for including these positions as testing designated
positions is the same as that for employees with a security clearance who see classified
documents only rarely – granting security clearances in advance improves flexibility and
ensures employees can be given access to classified material as soon as the need
arises.

Discretionary testing designated positions are agency specific sensitive positions that
may warrant designation for testing. For example, courts have supported testing for
confidential security clearances holders, health care professionals responsible for direct
patient care, and firefighters. Many testing designated positions that have not been
court tested are also appropriate as required by agency needs. In order to categorize a
position as discretionary, an agency would need to establish a connection between the
employee’s duties and the feared harm to the agency from the employee’s illegal drug
use. System administrators would be categorized as discretionary testing designated
positions because of the potential harm they could cause to the agency’s computer
security due to their levels of access.




                                            27
                                                             Audit of NRC’s Drug Testing Program


OIG contends that NRC’s system administrators and individuals engaged in law
enforcement activities who are authorized to carry weapons should be included as
testing designated positions because the criteria for preferred and discretionary
designations are applicable.

Page 15, 1st and 2nd paragraphs (which appear on page 11 of this final report)

These paragraphs indicate that for a notification to be proper, the employee’s
supervisor must be the person to notify the employee that they have been
selected for a drug test. HHS does not require that the supervisor be notified
before the employee. The HHS Model Plan which describes this process states,
“An individual selected for random testing, and the individual’s first-line
supervisor, shall be notified the same day the test is scheduled, preferably, within
two hours of the scheduled testing. The supervisor shall explain to the employee
that the employee is under no suspicion of taking drugs and that the employee’s
name was selected randomly.” Based on this information, the report should be
revised.

In addition, the Nuclear Regulatory Commission (NRC) intends to modify the
Drug-Free Workplace Plan to routinely notify the person to be tested before the
supervisor and, as part of the notification, confirm the name of the person’s
supervisor, and then notify the supervisor. This is permitted by the HHS Model
Plan.

OIG modified the text to clarify the guidance contained in HHS’ Model Plan for a
Comprehensive Drug Free Workplace Program (Model Plan). However, OIG contends
that the supervisor must be notified before the employee in order to explain to the
employee the circumstances concerning the employee’s selection for random testing.
OIG’s contention is based on HHS requirements, NRC guidance, legal interpretation,
and observation of the agency’s current notification process. As stated in the report, the
underlying reason for supervisor notification for drug testing pertains to lines of
authority. Employees are subject to disciplinary action if they refuse an order from a
supervisor.

In addition to the statement in the agency’s response from HHS’ Model Plan, Section IX
D, Random Testing, Notification of Selection, NRC Drug-Free Workplace Plan (Plan)
and NRC Drug Testing Manual (Manual) contain language that indicates that the
supervisor is to inform the employee that they have been selected for testing.
Specifically:

          The Plan requires in Section VI, Special Duties and Responsibilities, that
          NRC’s Headquarters Assistant Drug Program Coordinator shall notify the
          selected employee’s supervisor approximately 1 hour prior to actual
          collection. This section of the Plan does not mention direct notification of the
          employee as an option.




                                            28
                                                             Audit of NRC’s Drug Testing Program


          The Plan, in Section IX E, Random Testing, Notification of Selection, contains
          the same requirements as HHS’ Model Plan for the timeliness of employee
          and supervisor notification and for the supervisor’s explanation to the
          employee of the circumstances of their selection.

          The Manual requires in Chapter II F, Random Testing, Employee Notification,
          that the supervisor shall verbally and privately inform the employee that
          he/she has been identified through a random selection process for drug
          testing by urinalysis, normally, approximately 1 hour before the actual
          collection. The employee shall be clearly informed in writing by completing a
          “Notice To Appear for Random Drug Test” form. This form requires
          signatures from the employee to be tested and his or her supervisor.

Until HHS approves NRC’s proposed modifications, the agency should notify employees
according to the required procedures outlined in its existing guidance. Modification of
required procedures, prior to HHS approval, places NRC at risk of legal challenge and
fails to protect employees from unwarranted disciplinary action.

Page 17, 1st paragraph under heading “Insufficient Program Records Maintained”
(which appears on page 12 of this final report)

NRC has a System of Records established under the Privacy Act to establish
requirements for maintaining drug testing records. The staff maintains records
consistent with those requirements, including records of both positive and
adulterated tests. Due to the very low number of positive test results, a more
automated approach to recording this data has not been necessary and is not
used. Drug testing results information is compiled, although not necessarily in
the most efficient manner, when needed or requested. The last sentence on page
18 (which appears on page 13 of this final report) states that drug program staff
could not provide documentation of verified positive or adulterated tests that
occurred as a result of applicant testing. This information was available but
apparently not in a sufficiently timely manner from the perspective of the auditor.
This sentence should be deleted.

OIG did not modify this section of the report because, contrary to the agency’s
comment, the drug program does not maintain the type of documentation required by
both the NRC Drug-Free Workplace Plan and HHS’ Model Plan for a Comprehensive
Drug Free Workplace Program. Requirements in these documents direct the agency to
maintain a recordkeeping system that captures sufficient documents to include: 1)
notices of verified positive test results referred by the Medical Review Officer and 2)
evidence that an individual may have altered or tampered with a specimen. OIG’s
finding does not challenge the agency’s compliance with the Privacy Act or timeliness in
responding to OIG requests for information. Instead, this finding pertains strictly to the
availability of documentation of test results.

OIG contends that sufficient record keeping for notices of verified positive test results
referred by the Medical Review Officer and evidence that an individual may have altered
or tampered with a specimen need not be automated, but at a minimum must be

                                            29
                                                            Audit of NRC’s Drug Testing Program


documented and not compiled from memory. Program staff never provided OIG with
documentation of the verified positive test that was reported to HHS in FY 2002 and
never provided documentation of altered or tampered specimens. Program staff stated
early in the audit that they do not maintain separate records of positive results from
random testing or any applicant test results because there are so few positive results
from random testing. Furthermore, they believed a different office should maintain the
records of applicants denied employment due to “invalid” or positive test results. Later
in the course of the audit, OIG asked the program staff for the number of applicants who
were denied employment due their drug test result. On this occasion, drug program
staff compiled from memory a list of six applicant positives/invalids since 2002, but did
not provide documentation of these test results.




                                           30
